OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/PAKISTAN’S
FLOOD RELIEF EFFORTS AS
ADMINISTERED BY LOCAL
NONGOVERNMENTAL
ORGANIZATIONS
AUDIT REPORT NO. G-391-11-003-P
JANUARY 24, 2011




ISLAMABAD, PAKISTAN 

Office of Inspector General


January 24, 2011

MEMORANDUM

TO:                  USAID/Pakistan Mission Director, Andrew Sisson

FROM:                Office of Inspector General/Pakistan Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID/Pakistan’s Flood Relief Efforts as Administered by Local
                     Nongovernmental Organizations (Report No. G-391-11-003-P)

This memorandum transmits our final report on the subject audit. We have considered your

comments on the draft report and have included your response in Appendix II. 


Because the audit report does not contain any recommendations, no additional action is 

required by your office to address the report findings. 


I want to thank you and your staff for the cooperation and courtesies extended to us during this 

audit. 





U.S. Agency for International Development
American Embassy
Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 



Evaluation of Management Comments..................................................................................... 6 



Appendix I – Scope and Methodology ...................................................................................... 7 



Appendix II – Management Comments ..................................................................................... 9 

SUMMARY OF RESULTS

Heavy rainfall in multiple regions of Pakistan led to devastating flooding in July 2010. The
flooding, the worst the country had experienced in over 80 years, affected 82 of Pakistan’s 122
districts and displaced 12 million people, half of whom require humanitarian assistance. The
people are facing a severe shortage of food, drinking water, sanitation facilities, and medical
aid. The catastrophe not only deprived the people of their livelihood, but also exposed them
and their livestock to waterborne diseases such as malaria, diarrhea, and skin and eye
infections.

On July 30, 2010, the U.S. Ambassador to Pakistan issued a disaster declaration in response to
the damage from the floods. The Ambassador stated: “The flooding in Pakistan has engaged a
deep element of American values—the necessity of using our unique capabilities to save lives and
help our friends in times of need.”1 According to USAID, as of November 30, 2010, flood relief
programs had obligated approximately $571 million (Table 1).

       Table 1. USAID and State Department Obligations for Flood Relief Programs
                                as of November 30, 2010
                                       (not audited)

                                      Program                                        O
                                                                                     	 bligation
                                                                                     ($ millions)
    USAID’s Office of Foreign Disaster Assistance                                        201
    USAID’s Office of Food for Peace                                                      230
    USAID/Pakistan                                                                         10
    USAID/Pakistan’s Early Recovery Assistance to Pakistan                                 81
    U.S. Department of State’s Bureau of Population, Refugees, and Migration               49
    Total	                                                                                571

USAID/Pakistan committed $10 million for emergency flood relief efforts. The mission awarded a
$5 million grant to the International Organization for Migration, and two cooperative agreements
totaling $5 million to Pakistani nongovernmental organizations (NGOs). The audit focused on the
two Pakistani NGOs: Pakistan Poverty Alleviation Fund (PPAF), which received $2.7 million, and
Rural Support Programmes Network (RSPN), which received $2.3 million. The two agreements
were to provide relief in the provinces of Balochistan, Punjab, Sindh, and Khyber
Pakhtunkhwa—immediate relief to 80,100 households in the form of food hampers2 and hygiene
kits, and medical supplies to an affected population of 190,058 people and 262,463 livestock
(totaling 452,521). The performance period for these two awards began on August 13, 2010, and
RSPN ended on November 15, 2010 and PPAF has been given a no cost extension until January
31, 2011. As of December 31, 2010, USAID had obligated $5 million and expended $3.7 million.

USAID’s Office of Inspector General (OIG) in Pakistan conducted this audit to determine
whether USAID/Pakistan’s flood relief efforts—delivering food hampers, hygiene kits, and
medical supplies through Pakistani nongovernmental organizations—were meeting the
immediate needs of the flood victims.
1
  Ambassador Anne Patterson, Address to the National Defense University, “U.S. Foreign Policy 

Objectives in South Asia," Islamabad, August 31, 2010. 

2
  Food hampers contained flour, tea, oil, sugar, rice, lentils, spices, salt, dry biscuits, and water. 



                                                                                                    1
Auditors found that USAID/Pakistan’s implementing partners delivered food hampers, hygiene
kits, and medical supplies to meet the immediate needs of the flood victims. As of
November 15, 2010, the two implementers reported distributing food and hygiene kits to 80,098
households and administering medical supplies and treatment to an affected population of
159,620 people and 307,116 livestock (totaling 466,736). Table 2 highlights the program’s relief
targets and the corresponding results reported by the implementing partners.

    Table 2. Summary of Key Targets and Reported Results as of November 15, 2010*

     Relief Effort        Implementing           Target            Reported        Reported Result
                             Partner                                Result         as a Percent of
                                                                                       Target
Food hampers and            PPAF and             80,100             80,098               100
hygiene kits                 RSPN              households         households
distributed
Medical supplies              RSPN               452,521            466,736                103
administered                                   individuals        individuals

* Auditors substantiated the results for a sample of each group of recipients. Appendix I presents the
sampling details.

Furthermore, auditors found that in delivering relief items the implementing partners complied
with USAID’s branding and marking strategy.

Food Hampers and Hygiene Kits
PPAF and RSPN were charged with distributing food hampers and hygiene kits to 24,100
households affected by the flooding in Sindh. As of November 15, 2010, both implementers
reported distributing food hampers and hygiene kits to 24,098 households in Sindh. (The photo
on the next page shows distribution events.)

Auditors observed that PPAF issued food hampers and hygiene kit tokens to each household.
PPAF established separate teams for token registration, token distribution, and distribution of
the relief items. In establishing a distribution policy, PPAF gave priority to households that had
not received any aid from other donors. After selecting households, PPAF provided instructions
about the location and timing of the distribution and asked people to bring their tokens and
government-issued identification cards to the distribution points.

Auditors observed that PPAF teams followed the organization’s distribution policy. First, the
team responsible for distribution of the relief items matched recipients’ tokens and Pakistani
national identity cards to recipients’ names on the master token distribution list. Second, the
team directed recipients to a counter where they exchanged their tokens for food hampers and
hygiene kits. Lastly, the team collected recipients’ signatures or thumb impressions to record
the transaction.




                                                                                                    2
         Flood victims in Sindh receive food hampers. (Photo by OIG, September 2010)

In Khyber Pakhtunkhwa, RSPN was tasked with distributing food hampers and hygiene kits to
15,000 affected households. To accomplish this task, it established 17 distribution points in the
province’s eight districts. As of November 15, 2010, RSPN reported distributing food hampers
and hygiene kits to 15,000 households.3

In the districts of Nowshera and Charsadda, 2 of the 17 distribution points, auditors found that
RSPN followed its distribution process for food hampers and hygiene kits. Both distribution
points were easily accessible by road for the nearby flood-affected villages. RSPN first
distributed tokens to people it had identified through a needs assessment as being affected by
the floods. During the distribution of relief items, the implementer’s staff verified recipients’
tokens and identification and located the recipients’ names on the token distribution list. After
verification, staff directed recipients to the pickup counter, where they received food hampers
and hygiene kits.        Lastly, staff collected recipients’ tokens and signatures (or thumb
impressions) to record receipt of items.




3
  The remaining 41,000 food hampers and hygiene kits were distributed in Punjab and Balochistan,
where both RSPN and PPAF were working.



                                                                                               3
Medical Supplies
In Punjab4 RSPN was required to set up 17 mobile medical camps and 10 mobile veterinary
camps. In these camps, RSPN’s plan included distributing medical supplies for people as well
as for livestock. As of November 15, 2010, the implementing partner reported that it had
provided medical treatment to 466,736 people and livestock or 103 percent of the targeted
population. To verify the distribution of medical supplies, auditors conducted site visits to the
RSPN’s mobile sites in the district of Muzaffargarh. The auditors visited 6 of the 17 mobile
medical camps and 5 of the 10 mobile veterinary camps.

The implementer had established medical camps in remote areas, where villagers had limited
access to the main roads because of the damage caused by the floods. RSPN also had
selected camp sites in areas that were not currently receiving humanitarian assistance from
other donor organizations or government agencies. According to local villagers, RSPN made
announcements a day in advance at local mosques, providing information about the mobile
medical and veterinary camp sites. Doctors examined the population affected by the flood and
issued medical prescriptions after recording the patient’s name, address, diagnosis, and
medication prescribed. Doctors issued prescriptions that patients could fill at the camp
dispensary.

The veterinary camps were set up in areas close to the medical camps and operated similarly.
Livestock owners registered their names and described their animals’ symptoms. After
recording this information, the veterinarian staff administered medicine to the animals. In cases
we observed, RSPN did not distribute medicine directly to the owners of the livestock, but
instead directly treated livestock.

Branding and Marking Practices
USAID’s Automated Directives System Chapter 320, “Branding and Marking,” contains policies
and required procedures on branding and marking for USAID-funded programs, projects,
activities, public communications, and commodities. “Branding” refers to how a program or
project is named and positioned and who its sponsor is; “marking” refers to applying graphic
identities or logos to program materials or project signage to visibly acknowledge contributors
and identify organizations supporting the work. USAID/Pakistan’s branding strategy, issued on
September 17, 2010, emphasizes publicizing USAID’s partnership with the Pakistani people.
The mission’s agreements with PPAF and RSPN require the implementing partners to display
USAID’s logo on the food hampers and hygiene kits and at distribution sites.

At sites in Punjab, Sindh, and Khyber Pakhtunkhwa, auditors confirmed that the implementers
complied with the mission’s branding strategy. The auditors observed the following:

•   USAID branding and marking were present at the sites visited.

•   The implementing partners did not face adversity when using USAID branding and marking.




4
  RSPN in Punjab met with USAID officials to reassess its relief program and concluded that providing
medical treatment in the flood areas of Punjab was a higher priority than distributing food hampers and
hygiene kits. On September 2, 2010, USAID officials approved the revised work plan.


                                                                                                     4
•	 The flood victims interviewed were aware that the American people had provided the flood
   relief supplies they received.

In Punjab, RSPN was operating medical and veterinarian camps in the districts of Muzaffargarh
and Kot Addu. The implementers displayed banners in accordance with USAID/Pakistan’s
branding strategy at the six medical and five veterinarian camps visited. In addition to using
USAID logos on banners, the implementers also made announcements in the local language
stating that these medical and veterinarian camps were provided by the American people and
the U.S. Government. PPAF and RSPN staff in Sindh and Khyber Pakhtunkhwa were aware of
USAID/Pakistan’s branding strategy, and banners like the one shown below marked the sites
visited. Both implementers also made announcements in the local language stating that the aid
provided came from the American people and the U.S. Government.




          At this RSPN-affiliated mobile medical camp in Punjab, the banner bearing
          the logos of USAID and a group helping RSPN implement the program
          reads, “Medical camp for the flood victims in Punjab, Muzaffargarh.”
          (Photo by OIG, September 2010)

Our evaluation of management comments is on page 6. Appendix I contains a description of
the scope and methodology for the audit, and full text of USAID/Pakistan’s comments appears
in Appendix II.




                                                                                            5
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan provided its comments on the draft report on January 14, 2011.   In its
comments, the mission expressed agreement with the report’s contents.

Because our report contained no recommendations, no additional action is required by
USAID/Pakistan to address the results of this audit report.




                                                                                    6
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards.5 Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Pakistan’s flood relief efforts—
delivering food hampers, hygiene kits, and medical supplies through local nongovernmental
organizations—were meeting the immediate needs of the flood victims. To implement these
flood relief efforts, USAID/Pakistan signed two cooperative agreements, $2.7 million to the
Pakistan Poverty Alleviation Fund (PPAF) and $2.3 million to the Rural Support Programmes
Network (RSPN) in August 2010. The two implementing partners conducted flood relief activities
in four provinces: Balochistan, Punjab, Sindh, and Khyber Pakhtunkhwa.

The audit covered August through November 2010 and addressed the activities implemented
under the program. To answer the audit objective, we reviewed mission documentation related
to managing and monitoring the program, including implementation plans, implementing partner
agreements, performance measures, and performance results. We also performed site visits
and interviewed mission officials, implementing partners, and host-government officials. We
reviewed and compared plan targets with reported results.

We reviewed applicable laws and regulations as well as USAID policies and procedures
pertaining to USAID/Pakistan’s program—namely, certifications required by the Federal
Managers’ Financial Integrity Act of 1982,6 and Automated Directives System Chapters 202,
203, 302, and 596. The audit relied on the following sources of evidence: reviews of Agency
policies and internal controls, interviews with and information requested from implementing
partners, and interviews with USAID/Pakistan officials. We performed audit fieldwork from
September 26 through October 26, 2010, at the implementers’ program offices in Islamabad,
Lahore, and Peshawar; at the implementers’ warehouses in Multan, Faisalabad, and Karachi;
and at multiple distribution sites in Punjab, Sindh, and Khyber Pakhtunkhwa. Because of
security concerns throughout Pakistan, the Embassy’s regional security office did not approve
site visits to Balochistan.

Methodology

To determine whether the program was achieving its main goals, the audit team initially
interviewed staff at USAID/Pakistan’s Office of Infrastructure and Engineering. We also
interviewed the implementers to gain an understanding of the program, the key players, and
their roles and responsibilities. To answer the audit objective, the auditors conducted site visits
in three of the four provinces to evaluate whether the implementers were meeting the main

5
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).
6
    Public Law 97-255, as codified in 31 U.S.C 3512.


                                                                                                 7
                                                                                          Appendix I


program goal of providing relief in the form of food hampers, hygiene kits, and medical
treatment to people affected by the floods.

During site visits, the audit team tested the number of actual beneficiaries receiving aid at
distribution centers to ensure goods were delivered to the intended beneficiaries. Specifically,
the audit tested 1,752 of 80,098 households that received food hampers and hygiene kits, and
3,762 of 466,736 people and livestock administered medical supplies. Table 3 summarizes the
auditors’ results.

             Table 3. Summary of Results Tested During Auditors’ Site Visits

      Date of Site Visit           Site     Type of Aid       Reported         Verified
                                                               Result:          Result:
                                                            Beneficiaries    Beneficiaries
                                                            Receiving Aid    Receiving Aid
      October 7            Sindh           Food hamper            593              593
                                           and hygiene
                                           kits
      October 8            Sindh           Food hamper             518              518
                                           and hygiene
                                           kits
      October 18           Khyber          Food hamper             341              341
                           Pakhtunkhwa     and hygiene
                                           kits
      October 19           Khyber          Food hamper             300              300
                           Pakhtunkhwa     and hygiene
                                           kits
      September 29         Punjab          Medical               2,349            2,349
                                           supplies
                                           administered
      September 30         Punjab          Medical               1,413            1,413
                                           supplies
                                           administered

Furthermore, we tested whether the implementing partners’ procurement procedures and
distribution processes complied with applicable USAID regulations and the implementing
agreement. In addition, the audit made observations during the site visits about implementing
partners’ compliance with USAID/Pakistan branding and marking guidelines.

In addition, the auditors interviewed 43 people affected by flooding, asking questions about the
transparency of the process for selecting those eligible for flood relief aid and the importance of
the food hampers, hygiene kits, and medical treatment provided to them by USAID.




                                                                                                  8
                                                                                     Appendix II



MANAGEMENT COMMENTS
MEMORANDUM 



Date:         January 10, 2011

To:           Steven H. Bernstein
              Director, OIG/Pakistan

From:         Andrew B. Sisson /s/
              Mission Director

Subject:      Management Comments on Draft Audit Report of USAID/Pakistan’s Flood Relief
              Efforts as Administered by Local Non-Governmental Organizations

Reference:    Draft audit report No G-391-11-00X-P dated December 29, 2010.

In response to the referenced draft audit report, please find below the management comments:

USAID/ Pakistan would like to thank the Office of the Inspector General/Pakistan
(“OIG/Pakistan”) for conducting the audit of its Flood Relief Efforts as administered by local
non-governmental organizations. The subject audit report has been reviewed by the technical
office implementing the Flood Relief Efforts Project in collaboration with other members of the
Mission. After such review, all parties are in agreement with the contents of the audit report.

The overall nature of the audit and the ensuing report is comprehensive and we appreciate the
thoroughness with which OIG/Pakistan addressed the question of whether the Mission is
achieving its targets of providing food hampers, hygiene kits and medical supplies for flood
victims through Pakistani non-governmental organizations. We also agree with the audit
conclusion that the implementing partners complied with USAID’s branding and marking
strategy.




                                                                                                  9
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
